Department of Health and Human Services 

             OFFICE OF 

        INSPECTOR GENERAL 





ADDITION OF QUALIFIED DRUGS

 TO THE MEDICAID FEDERAL 

      UPPER LIMIT LIST 





                     Inspector General

                      December 2004
                     OEI-03-04-00320
               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections
The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management
and program evaluations (called inspections) that focus on issues of concern to the
department, the Congress, and the public. The findings and recommendations contained
in the inspections reports generate rapid, accurate, and up-to-date information on the
efficiency, vulnerability, and effectiveness of departmental programs.

Office of Investigations
The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties. The OI also oversees
state Medicaid fraud control units, which investigate and prosecute fraud and patient
abuse in the Medicaid program.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. The OCIG imposes program exclusions and
civil monetary penalties on health care providers and litigates those actions within the
department. The OCIG also represents OIG in the global settlement of cases arising
under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops compliance program guidances, renders advisory opinions on OIG sanctions to
the health care community, and issues fraud alerts and other industry guidance.
∆
   A B S T R A C T




                   The objectives of this study were to (1) determine the length of time it
                   took the Centers for Medicare & Medicaid Services (CMS) to include
                   drugs on the Federal upper limit list once the drugs met the statutory
                   and regulatory criteria, and (2) calculate the losses that may have
                   resulted due to drugs not being added to the list in a timely manner.
                   We found that CMS does not consistently add qualified drugs to the
                   Federal upper limit list in a timely manner. Of the 252 first-time
                   generic drugs approved between January 2001 and December 2003,
                   109 products met the statutory and regulatory criteria for inclusion;
                   however, only 25 were actually added. For the 25 drugs that were
                   added, CMS took an average of 36 weeks to place the products on the
                   list once the drugs were qualified for inclusion. As of July 15, 2004, the
                   84 drugs that were not added had been qualified for an average of
                   55 weeks. Qualified drugs not being added to the list in a timely
                   manner cost the Medicaid program an estimated $167 million between
                   2001 and 2003. We recommend that CMS establish an administrative
                   procedure and schedule to govern the determination and publication of
                   Federal upper limits.




 OEI-03-04-00320   ADDITION   OF   QUALIFIED DRUGS   TO THE   MEDICAID FEDERAL UPPER LIMIT LIST   i
∆   E X E C U T I V E                        S U M M A R Y


                  OBJECTIVE
                  The objectives of this study were to: (1) determine the length of time it
                  took the Centers for Medicare & Medicaid Services (CMS) to include
                  drugs on the Federal upper limit list once the drugs met the statutory
                  and regulatory criteria, and (2) calculate the losses that may have
                  resulted due to drugs not being added to the list in a timely manner.


                  BACKGROUND
                  Statutory and regulatory criteria require CMS to include a drug on the
                  Federal upper limit list if: (1) at least three versions of the drug are
                  rated as therapeutically equivalent by the Food and Drug
                  Administration, and (2) the drug has at least three suppliers listed in
                  current editions of national compendia. However, according to CMS
                  staff, the agency will only establish a Federal upper limit if it would
                  lead to cost savings. Neither the regulation nor the statute set
                  timeliness guidelines for adding qualified drugs to the Federal upper
                  limit list.

                  The Federal upper limit amount for a drug is set at 150 percent of the
                  published price for the least costly therapeutically equivalent product
                  plus a reasonable dispensing fee. The CMS publishes the list of drug
                  products with Federal upper limits in the State Medicaid Manual and
                  on its Web site.

                  In February 2004, the Office of Inspector General (OIG) issued a report
                  entitled Omission of Drugs from the Federal Upper Limit List in
                  2001 (OEI-03-02-00670). We found that 90 drug products were not
                  included on the Federal upper limit list in 2001 despite meeting the
                  criteria established by Federal laws and regulations. Medicaid could
                  have saved $123 million in 2001 by adding 55 of the 90 drug products to
                  the Federal upper limit list. In June 2004, the OIG received a letter
                  from the U.S. House of Representatives Committee on Energy and
                  Commerce, Subcommittee on Oversight and Investigations requesting
                  that we provide further analysis of CMS’s oversight of the Federal
                  upper limit list.

                  We developed a list of first-time generic drug products approved by the
                  Food and Drug Administration between January 2001 and December
                  2003. We then determined if and when each of these drug products
                  qualified for inclusion on the Federal upper limit list according to
                  statutory and regulatory criteria. For each calendar quarter that a

OEI-03-04-00320   ADDITION   OF   QUALIFIED DRUGS   TO THE   MEDICAID FEDERAL UPPER LIMIT LIST   ii
E X E C U T I V E                   S U     M M A R Y


                   qualified drug was not included on the Federal upper limit list, we
                   calculated potential Medicaid losses by: (1) subtracting the potential
                   Federal upper limit amount from the average Medicaid price, and
                   (2) multiplying the price difference by Medicaid utilization. We then
                   aggregated the losses for each quarter to determine the overall potential
                   losses to Medicaid caused by qualified drugs not being added to the
                   Federal upper limit list in a timely manner.


                   FINDINGS
                   The CMS does not consistently add qualified drugs to the Federal
                   upper limit list in a timely manner. The CMS did not consistently add
                   qualified drugs to the Federal upper limit list in a timely manner during
                   the period under review. Of the 252 first-time generic drugs approved
                   between 2001 and 2003, 109 products met the statutory and regulatory
                   criteria for inclusion on the Federal upper limit list. While 25 of the 109
                   drugs had been added to the list by July 15, 2004, very few were
                   included in a timely manner. As of that date, 84 of the 109 drugs we
                   reviewed had not been added by CMS.

                   For the 25 drugs that were added, CMS took an average of 36 weeks to
                   place the products on the Federal upper limit list once they met all
                   requirements for inclusion. Only 3 of the 25 drugs were included on the
                   list at the time they qualified. Three of the drugs were added more than
                   1 year after they first became eligible for inclusion.

                   Eighty-four drugs approved between 2001 and 2003 are currently
                   qualified for the Federal upper limit list but have not been added by
                   CMS. As of July 15, 2004, these 84 drugs had been qualified for an
                   average of 55 weeks yet were still not included on the Federal upper
                   limit list. Twenty-nine of these drugs had been qualified for at least
                   80 weeks (approximately 1 year and 7 months).
                   Medicaid lost an estimated $167 million between 2001 and 2003
                   because qualified drugs were not added to the Federal upper limit
                   list in a timely manner. Failure to add qualified drugs in a timely
                   manner cost the Medicaid program an estimated $167 million (both
                   Federal and State shares) between 2001 and 2003. Eighty-five percent
                   ($143 million) of the estimated losses were attributable to lags in adding
                   just 8 drugs.
                   The product with the highest loss figure, Fluoxetine 20 mg capsules
                   (brand name Prozac), illustrates the effect of not adding drugs to the
                   Federal upper limit list in a timely manner. The two-quarter lag in

 OEI-03-04-00320   ADDITION   OF   QUALIFIED DRUGS   TO THE   MEDICAID FEDERAL UPPER LIMIT LIST   iii
E X E C U T I V E                   S U     M M A R Y


                   adding the 20 mg dosage size of Fluoxetine capsules cost Medicaid an
                   estimated $57 million.

                   In the next several months, new generic versions of several other major
                   brand name drugs may become qualified for the Federal upper limit list.
                   For example, Gabapentin (brand-name Neurontin), Oxycodone
                   Hydrochloride (brand-name Oxycontin), and Paroxetine Hydrochloride
                   (brand-name Paxil) have recently come off patent and, therefore, now
                   have available generic versions. These 3 drugs accounted for a total of
                   $5.3 billion in retail sales in 2003. As was the case with Fluoxetine, not
                   adding these three drugs in a timely matter could cause substantial
                   losses to Medicaid.


                   RECOMMENDATION

                   The CMS should establish an administrative procedure and
                   schedule to govern the determination and publication of Federal
                   upper limits.
                   We believe that all qualified drugs should be included on the Federal
                   upper limit list in a timely manner. The findings of both this report and
                   our February 2004 report show that lags in adding qualified drugs are
                   costing the Medicaid program substantial amounts. However, we are
                   aware of the difficulties CMS faces in managing the Federal upper limit
                   list. As CMS noted in their comments to the previous report,
                   “pharmaceutical pricing and product information changes almost daily.”
                   While we continue to believe that all qualified drugs should be added to
                   the Federal upper limit list in a timely manner, another option would be
                   for CMS to consider focusing its resources on high-volume brand name
                   drugs that are coming off patent. As our findings show, a large portion
                   of the estimated losses can be attributed to lags in adding a small
                   number of major drugs. If CMS makes a concerted effort to keep track
                   of FDA ratings, number of suppliers, and published prices for these
                   high-volume products, significant lags in placing qualified drugs on the
                   Federal upper limit list could be avoided, thereby saving Medicaid
                   millions of dollars per year.
                   Agency Comments
                   The CMS concurred with intent of our recommendation and stated that
                   it had taken steps to support this objective. However, CMS did not
                   concur with the OIG’s methodology and the subsequent savings
                   estimates.


 OEI-03-04-00320   ADDITION   OF   QUALIFIED DRUGS   TO THE   MEDICAID FEDERAL UPPER LIMIT LIST   iv
∆   T A B L E           O F           C O N T E N T S



         ABSTRACT ....................................................... i



         E X E C U T I V E S U M M A R Y . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii 



         INTRODUCTION ................................................ 1




         FINDINGS

                    Drugs are not consistently added in a timely manner . . . . . . . . . . . . 6 


                    Drugs not being added timely costs Medicaid millions . . . . . . . . . . . 8 



         R E C O M M E N D A T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10 




         APPENDICES
                    A : Complete List of 109 Reviewed Drugs . . . . . . . . . . . . . . . . . . . . . 12 


                    B: Estimated Losses to Medicaid . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 


                    C: Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16 


                    D : Centers for Medicare & Medicaid Services Comments . . . . . . . 20 




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22 

∆   I N T R O D U C T I O N


                  OBJECTIVE
                  The objectives of this study were to: (1) determine the length of time it
                  took the Centers for Medicare & Medicaid Services (CMS) to include
                  drugs on the Federal upper limit list once the drugs met the statutory
                  and regulatory criteria, and (2) calculate the losses that may have
                  resulted due to drugs not being added to the list in a timely manner.


                  BACKGROUND
                  Medicaid Program
                  Medicaid is a jointly funded, Federal and State health insurance
                  program for certain low income and medically needy people. Individual
                  States establish eligibility requirements, benefits packages, and
                  payment rates for their Medicaid programs under broad Federal
                  standards administered by CMS. Federal regulations mandate that
                  States provide basic services to beneficiaries in order to receive Federal
                  matching funds. States may also receive Federal funding if they
                  provide other optional services as well. One of the most commonly
                  covered optional services that States provide is prescription drug
                  coverage. All 50 States and the District of Columbia currently offer
                  prescription drug coverage under the Medicaid program. In calendar
                  year (CY) 2003, CMS estimates that Medicaid payments for prescription
                  drugs totaled over $31 billion.1
                  Medicaid Drug Reimbursement Methodology
                  Each State is required to submit a Medicaid State plan to CMS
                  describing its payment methodology for covered drugs. Federal
                  regulations require, with certain exceptions, that each State’s
                  reimbursement for a drug not exceed the lower of its estimated
                  acquisition cost plus a reasonable dispensing fee or the provider’s usual
                  and customary charge to the public for the drug. States have
                  implemented dispensing fees that range from $1.89 to $11.46 per
                  prescription.

                  The CMS allows States flexibility to define estimated acquisition cost.
                  Most States base their calculation of estimated acquisition cost on a
                  drug’s average wholesale price (AWP) discounted by a certain
                  percentage. In CY 2003, this discount ranged from 5 percent to


                  1 This amount includes both the Federal and State shares of payments. It does not include
                   rebates collected under the Medicaid Drug Rebate program.




OEI-03-04-00320   ADDITION   OF   QUALIFIED DRUGS   TO THE   MEDICAID FEDERAL UPPER LIMIT LIST                1
I N T R O D        U C T        I O N


                    50 percent of AWP, sometimes depending on whether the drug was
                    brand name or generic or on the type of pharmacy from which the drug
                    was purchased. A small number of States use wholesale acquisition
                    costs plus a percentage markup rather than or in addition to discounted
                    AWPs when determining estimated acquisition cost.

                    For certain drugs, States also use the Federal upper limit and/or State
                    maximum allowable cost programs in determining reimbursement
                    amounts. The CMS has established Federal upper limit amounts for
                    over 400 drugs. In addition, numerous States have implemented a
                    maximum allowable cost program to limit reimbursement amounts for
                    certain drugs. Individual States determine the types of drugs that are
                    included in their maximum allowable cost program and the method by
                    which the maximum allowable cost for a drug is calculated.

                    In summary, States use a variety of different pricing mechanisms when
                    setting reimbursement amounts. In most cases, States reimburse for a
                    drug at the lower of its estimated acquisition cost, the Federal upper
                    limit amount, the State maximum allowable cost, or the provider’s usual
                    and customary charge, plus a reasonable dispensing fee.
                    Federal Upper Limit List
                    Pursuant to 42 CFR § 447.332, CMS is to establish Federal upper limits
                    in order to reduce the amount that Medicaid reimburses for multiple-
                    source drugs. According to CMS, Federal upper limits were put in place
                    to ensure that the Federal Government acts as a prudent payer by
                    taking advantage of current market prices for multiple-source drugs.
                    Federal regulation (42 CFR § 447.301) defines a multiple-source drug as
                    “ . . . a drug marketed or sold by two or more manufacturers or labelers
                    or a drug marketed or sold by the same manufacturer or labeler under
                    two or more different proprietary names or both under a proprietary
                    name and without such a name.” In other words, a multiple-source
                    drug is a drug that has more than one brand or generic version.

                    Originally, under 42 CFR § 447.332, CMS was to establish a Federal
                    upper limit amount for a drug when: (1) all versions of a drug had been
                    rated as therapeutically equivalent by the Food and Drug
                    Administration (FDA), and (2) at least three suppliers of the drug were
                    listed in current editions (or updates) of published compendia of cost
                    information for drugs available for sale nationally. The Omnibus
                    Budget Reconciliation Act of 1990 changed the criteria originally
                    established by the regulation by requiring a Federal upper limit when
                    three or more versions of a drug had been rated therapeutically and
                    pharmaceutically equivalent by FDA, regardless of the ratings of other

 OEI-03-04-00320    ADDITION   OF   QUALIFIED DRUGS   TO THE   MEDICAID FEDERAL UPPER LIMIT LIST   2
I N T R O D 
U C T             I O N


                   versions. The FDA identifies equivalent drugs in its publication 

                   Approved Drug Products with Therapeutic Equivalence Ev
aluations. 

                   According to FDA, drugs that are therapeutically equivalent are 

                   designated as “A-rated.” Neither the regulation nor the statute set

                   timeliness guidelines for adding qualified drugs to the Federal upper 

                   limit list. 


                   Federal regulation (42 CFR § 447.332) sets the Federal upper limit
                   amount at 150 percent of the published price for the least costly
                   therapeutically equivalent product that can be purchased in quantities
                   of 100 tablets or capsules plus a reasonable dispensing fee. If the drug
                   is not typically available in quantities of 100 or if the drug is a liquid,
                   the Federal upper limit amount is based on a commonly listed size.

                   The CMS applies an additional standard in determining which drugs
                   should be included on the Federal upper limit list. According to CMS
                   staff, only drugs that could potentially lead to savings should be subject
                   to Federal upper limits. Therefore, if a drug does not have a published
                   price that when multiplied by 150 percent is lower than the AWP (upon
                   which reimbursement is typically based), CMS does not include the
                   product on the Federal upper limit list.2
                   In summary, statutory and regulatory criteria require that CMS include
                   a drug on the Federal upper limit list if: (1) at least three versions of
                   the drug are rated as therapeutically equivalent by FDA, and (2) the
                   drug has at least three suppliers listed in national compendia. The
                   CMS uses an additional standard that requires that the Federal upper
                   limit amount would potentially lead to cost savings.

                   The CMS publishes a list of drugs for which Federal upper limits are
                   established in the State Medicaid Manual and on its Web site.3 Any
                   revisions to the Federal upper limit list are typically noted in Medicaid
                   program memoranda and on the CMS Web site. The CMS establishes
                   an upper limit for specific forms and strengths for each multiple-source
                   drug on the list. The Federal upper limit list also provides the source of
                   the pricing information used to calculate the upper limit amount for
                   each drug.


                   2 In our previous report, we disagreed with CMS about the usage of this additional
                    standard. States reimburse for a drug at the lower of its estimated acquisition cost, the
                    Federal upper limit amount, the State maximum allowable cost, or the provider’s usual
                    and customary charge. Therefore, States would only pay the Federal upper limit amount
                    for a drug if it were the lowest of these options.
                   3 Federal upper limit information is located at www.cms.gov/medicaid/drugs/drug10.asp.




 OEI-03-04-00320   ADDITION   OF   QUALIFIED DRUGS   TO THE   MEDICAID FEDERAL UPPER LIMIT LIST                 3
I N T R O D 
U C T             I O N


                   Related Work by the Office of Inspector General
                   In February 2004, the Office of Inspector General (OIG) issued a report
                   entitled Omission of Drugs from the Federal Upper Limit List in
                   2001 (OEI-03-02-00670). The OIG found that 90 drug products were not
                   included on the Federal upper limit list in 2001 despite meeting the
                   criteria established by Federal laws and regulations. Medicaid could
                   have saved $123 million in 2001 by adding 55 of the 90 drug products to
                   the Federal upper limit list. The remaining 35 drug products met the
                   criteria for inclusion on the Federal upper limit list, but did not have
                   any associated savings. The OIG recommended that CMS take steps to
                   ensure that all drugs meeting the criteria set forth in Federal laws and
                   regulations are included on the Federal upper limit list.
                   Inspection Requested by Congressional Subcommittee
                   On June 29, 2004, the OIG received a letter from the United States
                   House of Representatives Committee on Energy and Commerce,
                   Subcommittee on Oversight and Investigations. The letter expressed
                   concern with the amount of time CMS takes to add new generic
                   products to the Federal upper limit list, and requested that the OIG
                   provide an analysis of the issue. Among other things, we were asked to
                   determine the amount of time it takes for qualified drugs to be included
                   on the Federal upper limit list, and the subsequent cost to the program
                   of drugs not being added in a timely manner.


                   METHODOLOGY
                   Determining Generic Drugs Approved From 2001 to 2003
                   We developed a list of all first-time generic drugs approved by FDA
                   between January 2001 and December 2003. According to FDA, a first-
                   time generic is a drug that has never been approved as a generic before
                   and is, therefore, a new generic to the marketplace. After deducting
                   certain over-the-counter and physician-administered products, we
                   created a list of 252 first-time generic drugs approved between 2001 and
                   2003.
                   Determining if Approved Drugs Meet Federal Upper Limit Criteria
                   The CMS is required to include on the Federal upper limit list all
                   prescription drugs that have three versions rated therapeutically
                   equivalent by FDA and three suppliers listed in national compendia.
                   For each of the 252 first-time generic drugs approved between 2001 and
                   2003, we determined if three therapeutically equivalent versions were
                   listed by FDA, and, if so, the date that the third therapeutically
                   equivalent version was approved. To determine if these drugs also met

 OEI-03-04-00320   ADDITION   OF   QUALIFIED DRUGS   TO THE   MEDICAID FEDERAL UPPER LIMIT LIST   4
I N T R O D 
U C T             I O N


                   the three-supplier criterion, we obtained data from the Red Book™ for
                   Windows® CD-ROM (a national compendium). For each of the drugs
                   with three A-rated versions, we determined the first subsequent quarter
                   (i.e., the first quarter after a third A-rated version was approved) that
                   three suppliers were listed in the Red Book. 
In total, 109 of the first-
                   time generics approved in 2001, 2002, or 2003 met both criteria for 

                   inclusion on the Federal upper limit list. For the remainder of this 

                   report, the phrase “reviewed drugs” will refer to these 109 products. 

                   Determining if Drugs were on the Federal Upper Limit List
                   We obtained the most recent Federal upper limit list from the CMS Web
                   site. We also obtained from the Web site all changes to the list between
                   November 22, 2000, and July 15, 2004, and the date that the Federal
                   upper limit prices for a drug were to go into effect. We determined if
                   any of the 109 reviewed drugs were on the Federal upper limit list, and,
                   if so, the date they were added. For any drugs that were included on
                   the list, we determined the amount of time between when they became
                   qualified for the Federal upper limit list and the date they were actually
                   added.4
                   Estimating Potential Losses
                   For each quarter that a drug was qualified for but not included on the
                   Federal upper limit list, we compared the potential Federal upper limit
                   amount (150 percent of the lowest published price) to the average
                   Medicaid reimbursement amount for the drug that quarter.5 If the
                   result was a positive number (i.e., the Federal upper limit amount was
                   less than the average Medicaid amount), we multiplied it by the total
                   number of units reimbursed by Medicaid that quarter. The product of
                   this multiplication shows the estimated losses Medicaid had that
                   quarter due to the drug(s) not being included on the Federal upper limit
                   list. We aggregated the quarterly totals to determine the total
                   estimated losses to the program between 2001 and 2003.

                   A more complete discussion of our methodology is presented in
                   Appendix C.

                   4 For the purposes of this report, the term “qualified” refers to the date that a drug met the
                    statutory and regulatory criteria for inclusion on the Federal upper limit list.
                   5 Because the Federal upper limit amount is calculated by multiplying the lowest published
                    price for a drug by 150 percent, there are instances when this amount would be higher
                    than the reimbursement amount based on discounted AWP. In order to limit the time
                    required to do this analysis, we only calculated estimated losses for drugs that may have
                    actually led to losses (e.g., had at least one published price that when multiplied by
                    150 percent was below AWP).




 OEI-03-04-00320   ADDITION   OF   QUALIFIED DRUGS   TO THE   MEDICAID FEDERAL UPPER LIMIT LIST                 5
∆
     F I N D I N G S



 The CMS does not consistently add qualified              The CMS did not consistently add
drugs to the Federal upper limit list in a timely         qualified drugs to the Federal upper
                                         manner           limit list in a timely manner during
                                                          the period under review. Of the
                     252 first-time generic drugs approved between 2001 and 2003, 109 met
                     the statutory and regulatory criteria for inclusion on the list. While 25
                     of the 109 drugs had been added to the Federal upper limit list by July
                     15, 2004, very few of the 25 were included in a timely manner. As of
                     that date, an additional 84 of the 109 reviewed drugs had not been
                     added by CMS. A list of the 109 drugs is presented in Appendix A.
                     The 25 drugs that were included on the Federal upper limit list had been
                     qualified for an average of 36 weeks before being added by CMS.
                     For the 25 drugs that were added, CMS took an average of 36 weeks to
                     place the products on the Federal upper limit list once the drugs met
                     the statutory and regulatory criteria for inclusion. Only 3 of the
                     25 drugs were included on the list at the time they first became
                     qualified. Table 1 below presents a summary of the time CMS took to
                     include the 25 drugs.

                     The longest period between when a drug initially qualified and when it
                     was actually added to the Federal upper limit list was for two versions
                     of Metformin Hydrochloride, a drug used to treat Type II diabetes. The
                     third A-rated versions of Metformin Hydrochloride were approved in
                     January of 2002, and the 500 mg and 850 mg dosage sizes had three
                     suppliers as of April 1, 2002. However, CMS did not add the drugs until
                     March 18, 2004, or 102 weeks after the drugs first became qualified.
                     Table 1: Amount of Time Between When a Drug Qualified and When a Drug Was Added

                                 Number of Weeks Qualified                               Number of Drugs

                                             0 weeks                                                3

                                            20 weeks                                                2

                                            23 weeks                                                5

                                            35 weeks                                                8

                                            36 weeks                                                1

                                            48 weeks                                                3

                                       More than 52 weeks                                           3

                                        Average 36 Weeks                                     25 Drugs

                     Sources: FDA Web site, Red Book, Federal upper limit list



   OEI-03-04-00320   ADDITION   OF   QUALIFIED DRUGS   TO THE   MEDICAID FEDERAL UPPER LIMIT LIST          6
F   I N D I N G 
S


                      In addition to the statutory and regulatory criteria, CMS applies an
                      additional standard requiring that a Federal upper limit amount would
                      potentially lead to cost savings before a drug is included on the list.
                      Using CMS’s additional standard, these 25 drugs were still not added to
                      the Federal upper limit list in a timely manner. On average, the
                      25 drugs were included on the Federal upper limit list 32 weeks after
                      they may have first led to cost savings (i.e., met CMS’s additional
                      standard).
                      Eighty-four drugs that were not added to the Federal Upper Limit list had
                      been qualified for an average of 55 weeks.
                      Eighty-four of the 109 drugs we reviewed had not been added by CMS
                      as of July 15, 2004. At that date, these 84 drugs had been qualified for
                      an average of 55 weeks. Twenty-nine of these drugs had been qualified
                      for at least 80 weeks (approximately 1 year and 7 months). A summary
                      of these 84 drugs is presented in Table 2 below.
                      Table 2: Drugs Not Included on the Federal Upper Limit List as of 7/15/2004

                                  Number of Weeks Qualified                               Number of Drugs

                                          15 weeks or less                                           16

                                             28 weeks                                                14

                                             41 weeks                                                11

                                             54 weeks                                                9

                                             67 weeks                                                5

                                             80 weeks                                                15

                                             93 weeks                                                5

                                        More than 104 weeks                                          9

                                         Average 55 Weeks                                     84 Drugs

                      Sources: FDA website, Red Book, Federal upper limit list




                      Twenty-three of these eighty-four met CMS’s additional cost-savings
                      standard as well. Each of these 23 drugs had sufficiently low published
                      prices that may have led to savings, yet were still not included on the
                      Federal upper limit list by CMS.




    OEI-03-04-00320   ADDITION   OF   QUALIFIED DRUGS   TO THE   MEDICAID FEDERAL UPPER LIMIT LIST          7
  F   I N D I N G        S




Medicaid lost an estimated $167 million between                 Between 2001 and 2003, only 27 of
2001 and 2003 because qualified drugs were not                  the 109 reviewed drugs were
  added to the Federal upper limit list in a timely             associated with potential losses
                                                                caused by products not being
                                           manner
                                                                added to the Federal upper limit
                        list when they first qualified. However, the failure to add these
                                                       6

                        27 drugs in a timely manner cost the Medicaid program (both Federal
                        and State shares) an estimated $167 million over the 3-year period. A
                        majority of the losses were attributable to just eight drugs. These
                        8 drugs, listed in Table 3 below, were each associated with more than
                        $5 million in estimated losses, accounting for 85 percent ($143 million)
                        of the total. A complete list of the drugs and their potential losses is
                        provided in Appendix B.
                        Table 3: Largest Losses Associated with Qualified Drugs

                                                                                                7
                                           Drug                      Number of Quarters Delay          Estimated Losses

                          Fluoxetine HCL 20 mg capsule                           2                      $56,697,780

                             Buspirone HCL 15 mg tablet                          2                      $23,261,047

                              Metformin HCl 1 gm tablet                          7                      $16,011,279

                               Famotidine 20 mg tablet                           1                      $11,487,628

                             Buspirone HCL 10 mg tablet                          2                      $10,536,672

                             Tramadol HCl 50 mg tablet                           2                       $9,632,958

                             Metformin HCl 850 mg tablet                         7                       $8,893,822

                          Fluoxetine HCl 10 mg capsule                           2                       $6,404,089

                        Sources: FDA Web site, Red Book, Federal upper limit list, CMS State Medicaid Data

                        The product with the highest estimated loss figure, Fluoxetine
                        Hydrochloride 20 mg capsules (brand name Prozac), illustrates the
                        potential effect of not adding drugs to the Federal upper limit list in a
                        timely manner. As Table 3 shows, the two-quarter lag in adding the


                        6 Because Medicaid payment data were unavailable for 2004, we could only calculate
                         potential losses for the period between 2001 and 2003. Thirty-three of the reviewed drugs
                         did not meet the statutory and regulatory criteria until 2004, and were therefore not
                         included in any savings estimates. In addition, failure to add some drugs with sufficiently
                         low published prices in a timely manner did not actually lead to any losses.
                        7 Medicaid expenditure data were only available by quarter. Therefore, for the purposes of
                         calculating potential losses, if a drug was added to the Federal upper limit list at any
                         point during a quarter, we considered it included for the entire quarter.




      OEI-03-04-00320   ADDITION   OF   QUALIFIED DRUGS   TO THE   MEDICAID FEDERAL UPPER LIMIT LIST                      8
F   I N D I N G 
S


                      20 mg dosage size of Fluoxetine Hydrochloride capsules cost Medicaid
                      an estimated $57 million.8 The first generic version of Fluoxetine
                      Hydrochloride 20 mg capsules was approved in August 2001. According
                      to FDA, the product had three therapeutically equivalent versions as of
                      January 2002. The April 2002 Red Book listed more than three
                      suppliers for the drug. Based on the lowest published price, a Federal
                      upper limit for Fluoxetine Hydrochloride 20 mg capsules should have
                      been set at $0.60 (150 percent of $0.40) by April 1, 2002. However, CMS
                      did not place Fluoxetine Hydrochloride 20 mg capsules on the Federal
                      upper limit list until December 1, 2002 (at $0.60 per capsule). During
                      this period, four other versions of Fluoxetine Hydrochloride also
                      qualified for the Federal upper limit list. In total, not adding these four
                      versions when they first qualified cost Medicaid an additional $15
                      million.

                      In the next several months, new generic versions of several other major
                      brand name drugs may become qualified for the Federal upper limit list.
                      For example, Gabapentin (brand-name Neurontin), Oxycodone
                      Hydrochloride (brand-name Oxycontin), and Paroxetine Hydrochloride
                      (brand-name Paxil) have recently come off patent. These three drugs
                      accounted for a total of $5.3 billion in retail sales in 2003. As was the
                      case with Fluoxetine, not adding these three drugs to the Federal upper
                      limit list in a timely matter could cause substantial losses to Medicaid.




                      8 The estimated $57 million in losses only includes the period between April 1 and
                       September 30, 2002. It does not include the partial quarter between October 1 and
                       December 1, 2002. Nor does it account for the fact the drug may have been qualified for
                       inclusion as early as January 29, 2002.




    OEI-03-04-00320   ADDITION   OF   QUALIFIED DRUGS   TO THE   MEDICAID FEDERAL UPPER LIMIT LIST               9
F   I N D I N G        S
∆       R E C O M M E N D A T I O N

                      The CMS should establish an administrative procedure and
                      schedule to govern the determination and publication of Federal
                      upper limits.
                      We believe that all qualified drugs should be included on the Federal
                      upper limit list in a timely manner. The findings of both this report and
                      our February 2004 report show that lags in adding qualified drugs are
                      costing the Medicaid program substantial amounts. However, we are
                      aware of the difficulties CMS faces in managing the Federal upper limit
                      list. As CMS noted in their comments to the previous report,
                      “pharmaceutical pricing and product information changes almost daily.”
                      While we continue to believe that all qualified drugs should be added to
                      the Federal upper limit list in a timely manner, another option would be
                      for CMS to consider focusing its resources on high-volume brand name
                      drugs that are coming off patent. As our findings show, a large portion
                      of the estimated losses can be attributed to lags in adding a small
                      number of major drugs. If CMS makes a concerted effort to keep track
                      of FDA ratings, number of suppliers, and published prices for these
                      high-volume products, significant lags in placing qualified drugs on the
                      Federal upper limit list could be avoided, thereby saving Medicaid
                      millions of dollars per year.
                      Agency Comments
                      The CMS concurred with intent of our recommendation and stated that
                      it had taken steps to support this objective. However, CMS did not
                      concur with the OIG’s methodology and subsequent savings estimates.

                      Specifically, CMS stated that the OIG incorrectly describes the
                      therapeutic equivalency criterion used to determine if drugs should be
                      placed on the Federal upper limit list. According to CMS, for a drug to
                      meet the criterion, the FDA must “list two therapeutically equivalent
                      formulations of the drug when all formulations of that drug product are
                      ‘A’ rated. Where there are also ‘B’ rated drugs included with the ‘A’
                      drugs, there must be at least three ‘A’ drugs listed as therapeutically
                      and pharmaceutically equivalent.” The CMS believes this criterion is
                      more rigorous.

                      The CMS then lists additional actions they take above those performed
                      by the OIG, including (1) consulting additional compendia beyond the
                      Red Book, and (2) verifying that the drug is actually available in the
                      market by contacting manufacturers and suppliers.

                      The full text of CMS’s comments is presented in Appendix D.



    OEI-03-04-00320   ADDITION   OF   QUALIFIED DRUGS   TO THE   MEDICAID FEDERAL UPPER LIMIT LIST   10
R   E C O        M M E N D A T                I O N


                      OIG Response
                      In their comments, CMS stated that they have taken steps to address
                      our recommendation. However, CMS did not provide any details on
                      these steps. Therefore, we cannot determine if CMS’s efforts will
                      alleviate the problems identified in this report.
                      In response to CMS’s comments concerning therapeutic equivalency
                      requirements, we point out that the Omnibus Budget Reconciliation Act
                      of 1990 explicitly states, “[CMS] shall establish a Federal Upper
                      reimbursement limit for each multiple source drug for which the FDA
                      has rated three or more products therapeutically and pharmaceutically
                      equivalent, regardless of whether all such additional formulations are
                      rated as such...” We understand that before this statute was enacted,
                      regulations may have allowed for a Federal upper limit to be established
                      if only two versions of a drug were available and both were
                      therapeutically equivalent. However, as we read the statutory
                      provisions, a product must have three A-rated versions to be included on
                      the Federal upper limit list.

                      In any case, CMS’s interpretation would potentially allow for more
                      instances where a product would be placed on the Federal upper limit
                      list. The OIG’s interpretation requires three versions of a drug to be
                      A-rated while CMS takes the position that two may be sufficient. If the
                      OIG followed CMS’s interpretation, it is possible that we would have
                      identified additional drugs that should have been added.

                      Finally, we recognize that CMS takes additional steps in determining
                      product availability, and understand their reasons for doing so.
                      However, CMS has not explained why the additional steps account for
                      the delays identified by the OIG.




    OEI-03-04-00320   ADDITION   OF   QUALIFIED DRUGS   TO THE   MEDICAID FEDERAL UPPER LIMIT LIST   11
  ∆            A P P E N D I X                               ~        A

Complete List of 109 Reviewed Drugs

                                                                                                           3 A-rated   3 Supplier   Federal Upper
             Drug                                     Unit                         Strength                   Date        Date        Limit Date
Acetaminophen; Butalbital; Caffeine;
Codeine                                         Capsule; Oral             325MG;50MG;40MG;30MG             22-Aug-01   01-Oct-01
Amcinonide                                      Cream; Topical                      0.10%                  31-May-02    1-Jul-02
Ammonium Lactate                                Cream; Topical                       12%                   10-Apr-03    1-Jul-03
Amoxicillin                                 Suspension; Oral                      400MG/5ML                4-Dec-02    1-Jan-03
Amoxicillin                                 Suspension; Oral                      200MG/5ML                4-Dec-02    1-Apr-03
Amoxicillin; Clavulanate Potassium               Tablet; Oral                   875MG;125MG                17-Sep-02   1-Oct-02
Amoxicillin; Clavulanate Potassium               Tablet; Oral                   500MG;125MG                30-Oct-02   1-Jan-03
Amoxicillin; Clavulanate Potassium          Suspension; Oral              200MG/5ML;28.5MG/5ML             16-Dec-02   1-Jan-03
Amoxicillin; Clavulanate Potassium          Suspension; Oral               400MG/5ML;57MG/5ML              16-Dec-02   1-Jan-03
Amoxicillin; Clavulanate Potassium        Chewable Tablet; Oral                 200MG;28.5MG               3-Dec-03    1-Jan-04
Amoxicillin; Clavulanate Potassium        Chewable Tablet; Oral                  400MG;57MG                3-Dec-03    1-Jan-04
Betamethasone Diproprionate              Augmented Gel; Topical                     0.05%                  2-Dec-03    1-Jan-04
Betamethasone Diproprionate             Augmented Cream; Topical                    0.05%                  9-Dec-03    1-Jan-04
Betamethasone Diproprionate;
Clotrimazole                                    Cream; Topical                      0.05%                   5-Jun-01   01-Jul-01
Bupropion Hydrochloride                         ER Tablet; Oral                     150MG                  22-Mar-04   1-Apr-04
Buspirone Hydrochloride                          Tablet; Oral                        5MG                   27-Feb-02   01-Apr-02     01-Dec-02
Buspirone Hydrochloride                          Tablet; Oral                       10MG                   27-Feb-02   01-Apr-02     01-Dec-02
Buspirone Hydrochloride                          Tablet; Oral                       15MG                   27-Feb-02   01-Apr-02     01-Dec-02
Buspirone Hydrochloride                          Tablet; Oral                       30MG                   25-Mar-04   01-Apr-04
Butorphanol Tartrate                             Nasal Spray                     1MG/SPRAY                 12-Mar-02   01-Apr-02
Cefaclor                                        ER Tablet; Oral                     500MG                  4-Sep-02    1-Oct-02
Cefuroxime Axetil                                Tablet; Oral                       250MG                   2-Oct-02   1-Jan-03
Cefuroxime Axetil                                Tablet; Oral                       500MG                   2-Oct-02   1-Jan-03
Clindamycin Hydrochloride                       Capsule; Oral                       300MG                  18-Mar-03   01-Apr-03
Econazole Nitrate                               Cream; Topical                        1%                   26-Nov-02   1-Jan-03
Ethinyl Estradiol; Norethindrone
Acetate                                          Tablet; Oral                   0.03MG;1.5MG               18-Sep-03   1-Oct-03
Ethinyl Estradiol; Norethindrone
Acetate                                          Tablet; Oral                    0.02MG;1MG                18-Sep-03   1-Jan-04
Ethinyl Estradiol; Norgestimate                  Tablet; Oral                0.035MG;0.25MG                 9-Jan-04   1-Apr-04
                                                                        0.035MG,0.035MG,0.035MG
Ethinyl Estradiol; Norgestimate                  Tablet; Oral           ;0.18MG,0.215MG,0.025MG            26-Mar-04   1-Apr-04
Famotidine                                       Tablet; Oral                       20MG                   16-Apr-01   01-Jul-01     20-Nov-01
Famotidine                                       Tablet; Oral                       40MG                   16-Apr-01   01-Jul-01     20-Nov-01
Flecainide Acetate                               Tablet; Oral                       100MG                  28-Oct-02   01-Jan-03
Flecainide Acetate                               Tablet; Oral                       150MG                  28-Oct-02   01-Jan-03
Flecainide Acetate                               Tablet; Oral                       50MG                   28-Oct-02   01-Jan-03
Fludrocortisone Acetate                          Tablet; Oral                       0.1MG                  21-Jan-03   1-Apr-03
Fluoxetine Hydrochloride                        Capsule; Oral                       10MG                   29-Jan-02   01-Apr-02     01-Dec-02
Fluoxetine Hydrochloride                        Capsule; Oral                       20MG                   29-Jan-02   01-Apr-02     01-Dec-02
Fluoxetine Hydrochloride                        Capsule; Oral                       40MG                   29-Jan-02   01-Apr-02     01-Dec-02



           OEI-03-04-00320           ADDITION   OF   ELIGIBLE DRUGS   TO THE   MEDICAID FEDERAL   UPPER   LIMIT LIST                   12
A    P       P E N D           I X ~     A           





                                                                                                          3 A-rated   3 Supplier   Federal Upper
                  Drug                               Unit                         Strength                   Date        Date        Limit Date
Fluoxetine Hydrochloride                       Solution, Oral                    20MG/5ML                 29-Jan-02   01-Apr-02     01-Dec-02
Fluoxetine Hydrochloride                        Tablet; Oral                       10MG                   29-Jan-02   01-Apr-02     01-Dec-02
Fosinopril Sodium                               Tablet; Oral                       10MG                   23-Apr-04    1-Jul-04
Fosinopril Sodium                               Tablet; Oral                       20MG                   23-Apr-04    1-Jul-04
Fosinopril Sodium                               Tablet; Oral                       40MG                   23-Apr-04    1-Jul-04
Hydrocodone Bitartrate; Ibuprofen               Tablet; Oral                    7.5MG;200MG               31-Dec-03   1-Jan-04
Ipratropium Bromide                             Nasal Spray                   0.021MG/SPRAY               31-Mar-03    1-Jul-03
Ipratropium Bromide                             Nasal Spray                   0.042MG/SPRAY               31-Mar-03    1-Jul-03
Isotretinoin                                   Capsule; Oral                       10MG                   24-Dec-02   1-Jan-03
Isotretinoin                                   Capsule; Oral                       20MG                   24-Dec-02   1-Jan-03
Isotretinoin                                   Capsule; Oral                       40MG                   24-Dec-02   1-Jan-03
Lidocaine; Prilocaine                          Cream; Topical                    2.5%;2.5%                27-Aug-03   1-Oct-03
Lisinopril                                      Tablet; Oral                       30MG                    1-Jul-02   1-Oct-02       11-Mar-03
Lithium Carbonate                              ER Tablet; Oral                     300MG                  21-Apr-03    1-Jul-03
Lithium Carbonate                              ER Tablet; Oral                     450MG                  21-Aug-03   1-Oct-03
Lovastatin                                      Tablet; Oral                       10MG                   17-Dec-01   01-Jan-02     01-Dec-02
Lovastatin                                      Tablet; Oral                       20MG                   17-Dec-01   01-Jan-02     01-Dec-02
Lovastatin                                      Tablet; Oral                       40MG                   17-Dec-01   01-Jan-02     01-Dec-02
Mefloquine Hydrochloride                        Tablet; Oral                       250MG                  29-Dec-03   1-Jan-04
Megestrol Acetate                            Suspension; Oral                     40MG/ML                 15-Feb-02   01-Apr-02
Metformin Hydrochloride                         Tablet; Oral                       500MG                  24-Jan-02   1-Apr-02       18-Mar-04
Metformin Hydrochloride                         Tablet; Oral                       850MG                  24-Jan-02   1-Apr-02       18-Mar-04
Metformin Hydrochloride                         Tablet; Oral                        1GM                   24-Jan-02   1-Apr-02
Metolazone                                      Tablet; Oral                       2.5MG                  23-Dec-03   1-Jan-04
Metolazone                                      Tablet; Oral                       10MG                   24-Dec-03   1-Apr-04
Metolazone                                      Tablet; Oral                        5MG                   1-Mar-04    1-Apr-04
Midodrine Hydrochloride                         Tablet; Oral                        5MG                   11-Sep-03   1-Jan-04
Mirtazapine                                     Tablet; Oral                       15MG                   19-Jun-03   1-Oct-03
Mirtazapine                                     Tablet; Oral                       30MG                   19-Jun-03   1-Oct-03
Mirtazapine                                     Tablet; Oral                       45MG                   19-Jun-03   1-Oct-03
Mixed Salts (Amphetamine)                       Tablet; Oral                       2.5MG                  14-Jun-02    1-Jul-02
Mixed Salts (Amphetamine)                       Tablet; Oral                       1.25MG                 19-Jun-02    1-Jul-02
Mixed Salts (Amphetamine)                       Tablet; Oral                        5MG                   14-Jun-02   1-Oct-02
Mixed Salts (Amphetamine)                       Tablet; Oral                       7.5MG                  14-Jun-02   1-Oct-02
Mixed Salts (Amphetamine)                       Tablet; Oral                      1.875MG                 9-Sep-03    1-Apr-04
Mixed Salts (Amphetamine)                       Tablet; Oral                      3.125MG                 9-Sep-03    1-Apr-04
Mixed Salts (Amphetamine)                       Tablet; Oral                       3.75MG                 9-Sep-03    1-Apr-04
Mometasone Furoate                           Ointment; Topical                     0.10%                  14-Nov-03   1-Jan-04
Mupirocin                                    Ointment; Topical                       2%                   7-Nov-03    1-Jan-04
Nizatidine                                     Capsule; Oral                       150MG                   5-Jul-02   1-Oct-02       11-Mar-03




             OEI-03-04-00320        ADDITION   OF   ELIGIBLE DRUGS   TO THE   MEDICAID FEDERAL   UPPER   LIMIT LIST                   13
A   P    P E N D            I X ~      A           





                                                                                                        3 A-rated   3 Supplier   Federal Upper
               Drug                                Unit                         Strength                   Date        Date        Limit Date
Nizatidine                                   Capsule; Oral                       300MG                   5-Jul-02   1-Oct-02       11-Mar-03
Ofloxacin                                     Tablet; Oral                       200MG                  2-Sep-03    1-Oct-03
Ofloxacin                                     Tablet; Oral                       300MG                  2-Sep-03    1-Oct-03
Ofloxacin                                     Tablet; Oral                       400MG                  2-Sep-03    1-Oct-03
Omeprazole                                 DR Capsule; Oral                      20MG                   1-Nov-02    1-Jan-03
Omeprazole                                 DR Capsule; Oral                      10MG                   1-Nov-02    1-Oct-03
Oxaprozin                                     Tablet; Oral                       600MG                  31-Jan-01   01-Apr-01     01-Dec-02
Paroxetine Hydrochloride                      Tablet; Oral                       10MG                   8-Mar-04    1-Apr-04
Paroxetine Hydrochloride                      Tablet; Oral                       20MG                   8-Mar-04    1-Apr-04
Paroxetine Hydrochloride                      Tablet; Oral                       30MG                   8-Mar-04    1-Apr-04
Paroxetine Hydrochloride                      Tablet; Oral                       40MG                   8-Mar-04    1-Apr-04
Pergolide Mesylate                            Tablet; Oral                       .05 MG                 4-Sep-03    1-Jan-04
Pergolide Mesylate                            Tablet; Oral                       .25MG                  4-Sep-03    1-Jan-04
Pergolide Mesylate                            Tablet; Oral                        1MG                   4-Sep-03    1-Jan-04
Prednisolone Sodium Phosphate                Solution; Oral                     5MG/5ML                 23-Dec-02   1-Jan-03
Promethazine Hydrochloride              Suppository; Rectal                      12.5MG                 11-Apr-03    1-Jul-03
Propafenone Hydrochloride                     Tablet; Oral                       300MG                  7-Feb-02    01-Apr-02
Rimantidine Hydrochloride                     Tablet; Oral                       100MG                  30-Aug-02   01-Oct-02
Sotatol Hydrochloride                         Tablet; Oral                       120MG                   8-Apr-04    1-Jul-04      27-Jun-04
Sotatol Hydrochloride                         Tablet; Oral                       160MG                   8-Apr-04    1-Jul-04      27-Jun-04
Sotatol Hydrochloride                         Tablet; Oral                       80MG                    8-Apr-04    1-Jul-04      27-Jun-04
Tamoxifen Citrate                             Tablet; Oral                       10MG                   20-Feb-03   1-Apr-03
Tamoxifen Citrate                             Tablet; Oral                       20MG                   20-Feb-03   1-Apr-03
Tizanidine Hydrochloride                      Tablet; Oral                        2MG                    3-Jul-02   1-Oct-02       11-Mar-03
Tizanidine Hydrochloride                      Tablet; Oral                        4MG                    3-Jul-02   1-Oct-02       11-Mar-03
Torsemide                                     Tablet; Oral                       100MG                  27-May-03    1-Jul-03
Torsemide                                     Tablet; Oral                       10MG                   27-May-03    1-Jul-03
Torsemide                                     Tablet; Oral                       20MG                   27-May-03    1-Jul-03
Torsemide                                     Tablet; Oral                        5MG                   27-May-03    1-Jul-03
Tramadol Hydrochloride                        Tablet; Oral                       50MG                   19-Jun-02    1-Jul-02      11-Mar-03
Trimethobenzamide Hydrochloride              Capsule; Oral                       300MG                  28-Aug-03   1-Oct-03
Sources: FDA Web site, Red Book, Federal upper limit list




         OEI-03-04-00320          ADDITION   OF   ELIGIBLE DRUGS   TO THE   MEDICAID FEDERAL   UPPER   LIMIT LIST                   14
∆   A P P E N D I X                            ~         B

        Estimated Losses to Medicaid

                                                                               Quarters           Potential
                        Drug                       Strength         Form        Delay              Losses
        Fluoxetine HCL                              20 MG          Capsule           2          $56,697,780
        Buspirone HCL                               15 MG           Tablet           2          $23,261,047
        Metformin HCl                               1 GM            Tablet           7          $16,011,279
        Famotidine                                  20 MG           Tablet           1          $11,487,628
        Buspirone HCL                               10 MG           Tablet           2          $10,536,672
        Tramadol HCl                                50 MG           Tablet           2           $9,632,958
        Metformin HCl                              850 MG           Tablet           7           $8,893,822
        Fluoxetine HCL                              10 MG          Capsule           2           $6,404,089
        Metformin HCl                              500 MG           Tablet           7           $4,922,364
        Fluoxetine HCL                              40 MG          Capsule           2           $4,015,053
        Fluoxetine HCL                              10 MG           Tablet           2           $3,276,601
        Tamoxifen Citrate                           10 MG           Tablet           3           $2,285,933
        Oxaprozin                                  600 MG           Tablet           6           $2,184,381
        Buspirone HCL                               5 MG            Tablet           2           $2,163,399
        Famotidine                                  40 MG           Tablet           1           $1,601,892
        Fluoxetine HCL                          20 MG/5 ML         Solution          2           $1,299,147
        Mirtazapine                                 30 MG           Tablet           1            $572,887
        Nizatidine                                 150 MG          Capsule           1            $448,501
        Tamoxifen Citrate                           20 MG           Tablet           3            $444,140
        Mirtazapine                                 45 MG           Tablet           1            $413,550
        Flecainide Acetate                          50 MG           Tablet           3            $339,654
        Mirtazapine                                 15 MG           Tablet           1            $254,751
        Flecainide Acetate                         100 MG           Tablet           3            $148,689
        Flecainide Acetate                         150 MG           Tablet           3            $115,875
        Lisinopril                                  30 MG           Tablet           1             $32,077
        Nizatidine                                 300 MG          Capsule           1             $20,014
        Rimantidine HCL                            100 MG           Tablet           1              $829
        TOTAL                                                                                    $167,465,012
        Sources: FDA Web site, Red Book, Federal upper limit list




OEI-03-04-00320         ADDITION   OF   ELIGIBLE DRUGS   TO THE   MEDICAID FEDERAL   UPPER   LIMIT LIST         15
∆     A P P E N D I X                          ~         C




    METHODOLOGY
    Determining Generic Drugs Approved From 2001 to 2003
    We developed a list of all first-time generic drugs approved by FDA between January
    2001 and December 2003. According to FDA, a first-time generic is a drug that has
    never been approved as a generic before and is, therefore, a new generic to the
    marketplace. Prior to approval of a first-time generic, only brand versions were
    available for sale. Using information obtained from the FDA Web site, we determined
    that 331 first-time generic drugs were approved during this time period.9
    To focus on prescription drugs that are typically available at pharmacies, we removed
    from the list 50 injectable drugs and 17 over-the-counter products. We also removed
    12 drugs that had additional branded versions (i.e., non-generics) available before
    2001, and therefore may have been eligible for inclusion on the Federal upper limit list
    prior to the review period. After these deductions, 252 drugs remained on our list of
    first-time generics approved between January 2001 and December 2003.
    Determining if Approved Drugs Meet Federal Upper Limit Criteria
    The CMS is required to include on the Federal upper limit list all prescription drugs that
    have three versions rated therapeutically equivalent by FDA and three suppliers listed
    in national compendia. On June 1, 2004, we downloaded a file containing therapeutic
    equivalence data from the FDA Web site. For each of the 252 first-time generic drugs
    approved between 2001 and 2003, we determined if three therapeutically equivalent
    versions were listed on the FDA file, and, if so, the date that the third therapeutically
    equivalent version was approved. Of the 252 drugs, 113 had at least 3 versions rated
    therapeutically equivalent by FDA.

    To determine if these drugs also met the three-supplier criterion, we obtained data from
    the Red Book™ for Windows® CD-ROM, a national drug compendium published
    quarterly by Micromedex (hereinafter, referred to as Red Book). For each of the
    113 drugs with three A-rated versions, we determined the first subsequent quarter (i.e.,
    the first quarter after a third A-rated version was approved) that three suppliers were
    listed in Red Book. All but 4 drugs had the required number of suppliers listed in a
    subsequent quarter, leaving 109 of the first-time generics approved in 2001, 2002, or
    2003 that met the criteria for inclusion on the Federal upper limit list.




     9 The 331 drugs represent various forms and dosage sizes of approved products. For example, a product with
     dosage sizes of 20 mg, 40 mg, and 80 mg counted as three drugs.



OEI-03-04-00320         ADDITION   OF   ELIGIBLE DRUGS   TO THE   MEDICAID FEDERAL   UPPER   LIMIT LIST           16
A   P   P E N D           I X ~        C


     Determining if Drugs were on the Federal Upper Limit List
     We obtained the current Federal upper limit list from the CMS Web site. We also
     obtained from the Web site all changes to the list between November 22, 2000, and
     July 15, 2004. We determined if any of the 109 reviewed drugs were on the Federal
     upper limit list, and, if so, the date they were added. For any drugs that were included
     on the list, we determined the amount of time between when they became qualified for
     the Federal upper limit list and the date they were actually added.

     For example, Oxaprozin had its third A-rated version approved in January 2001. We
     checked subsequent quarters of Red Book and determined that the drug had three
     suppliers as of April 1, 2001. Oxaprozin was added to the Federal upper limit list on
     December 1, 2002. Therefore, the amount of time between when Oxaprozin first
     qualified for the Federal upper limit list and when it was actually added equaled
     87 weeks.
     Estimating Potential Losses

     For each quarter that a drug was qualified for but not included on the Federal upper
     limit list, we compared the potential Federal upper limit amount to the average
     Medicaid reimbursement amount for the drug that quarter. Because the Federal upper
     limit amount is calculated by multiplying the lowest published price for a drug by
     150 percent, there are instances when this amount would be higher than the
     reimbursement amount based on discounted AWP. In order to limit the time required to
     do this analysis, we only calculated estimated losses for drugs that may have been
     associated with actual losses if not added in a timely manner (e.g., had at least one
     published price significantly below AWP).
     Calculating Potential Federal Upper Limit Amounts
     To calculate a potential Federal upper limit amount, we used pricing information from
     the Red Book. Federal regulations set the upper limit amount at 150 percent of the least
     costly therapeutically equivalent product that can be purchased in package sizes of
     100 (with certain exceptions). Therefore, for every calendar quarter that a drug was not
     included on the Federal upper limit list, we determined which of the A-rated versions
     available in a package size of 100 had the lowest price listed in the Red Book. If a drug
     was not typically available in a package size of 100, we determined the lowest price for
     the most common package size listed in the Red Book. We then multiplied this price by
     150 percent to determine the Federal upper limit amount for the drug each quarter. We
     did not verify that the prices published in the Red Boo
k were actually available in the
     marketplace.10



     10 According to staff, CMS often verifies that the lowest published price is actually available in the marketplace
     by contacting manufacturers and/or distributors.



    OEI-03-04-00320        ADDITION   OF   ELIGIBLE DRUGS   TO THE   MEDICAID FEDERAL   UPPER   LIMIT LIST            17
A   P   P E N D       I X ~        C


     Calculating Medicaid Reimbursement Amounts
     To determine the amount Medicaid reimbursed for the drugs, we downloaded
     50 Medicaid payment and utilization files for CY 2001 through CY 2003 from CMS’s Web
     site. State reimbursement data was only available by quarter. We did not obtain data
     from the first 2 quarters of CY 2004 because the files were not yet available; therefore,
     potential losses could only be calculated through the end of CY 2003. We also did not
     include data from Arizona because its drug reimbursement and utilization files were not
     available. Each file contained variables representing total State reimbursement,
     number of units reimbursed, and number of prescriptions written for every drug by
     calendar quarter.

     The total State reimbursement amount listed in the files included both the payments for
     the drug and the dispensing fees paid to the pharmacy. To determine a State’s
     reimbursement for the drug only, we:

              (1) calculated the total amount paid in dispensing fees for the drug by
              multiplying the State’s dispensing fee by the number of prescriptions written for
              the drug in each State each quarter;

              (2) subtracted total dispensing fees from the total reimbursement for the drug in
              each State each quarter; and

              (3) aggregated reimbursement for the drug only, number of units reimbursed,
              and number of prescriptions written for the drug each quarter.

     We then calculated the average Medicaid reimbursement amount per quarter for each of
     the drugs by dividing the total of all States’ reimbursement for the product (without the
     dispensing fee) by the total number of units reimbursed.
     Calculating Potential Losses
     For each drug for which the untimely addition may have led to losses, we subtracted the
     potential Federal upper limit amount from the average Medicaid reimbursement
     amount. If the result was a positive number (i.e., the Federal upper limit amount was
     less than the average Medicaid amount), we multiplied it by the total number of units
     reimbursed that quarter. The product of this multiplication shows the estimated losses
     Medicaid had that quarter due to the drug(s) not being included on the Federal upper
     limit list. We aggregated the quarterly totals to determine the total estimated losses to
     the program between 2001 and 2003.

     Our methodology assumes that each of the reviewed drugs became qualified for the
     Federal upper limit list on the first day of a calendar quarter. However, drugs could be
     added to the Federal upper limit list at any time. To allow for this when calculating
     losses, we considered a drug that was added at any point in the quarter to be included for
     the entire quarter, and therefore it was not accounted for in our estimates. For example,
     Oxaprozin first became qualified for the Federal upper limit list on April 1, 2001, but the

    OEI-03-04-00320    ADDITION   OF   ELIGIBLE DRUGS   TO THE   MEDICAID FEDERAL   UPPER   LIMIT LIST   18
A   P   P E N D       I X ~       C


     drug was not added to the Federal upper limit list until December 1, 2002. Therefore,
     we calculated potential losses for the last 3 quarters of 2001 and the first 3 quarters of
     2002 (April 1, 2001, through September 30, 2002), but did not calculate losses for the
     period between October 1, 2002, and December 1, 2002 (the date Oxaprozin was added).
     Because of this, our estimates of program losses may be below the true amount.
     Furthermore, because State reimbursement data was not available for CY 2004, we were
     unable to calculate losses for any drugs approved between 2001 and 2003 that did not
     meet all criteria for inclusion until 2004.




    OEI-03-04-00320   ADDITION   OF   ELIGIBLE DRUGS   TO THE   MEDICAID FEDERAL   UPPER   LIMIT LIST   19
∆   A P P E N D I X                      ~         D




OEI-03-04-00320   ADDITION   OF   ELIGIBLE DRUGS   TO THE   MEDICAID FEDERAL   UPPER   LIMIT LIST   20
OEI-03-04-00320   ADDITION   OF   ELIGIBLE DRUGS   TO THE   MEDICAID FEDERAL   UPPER   LIMIT LIST   21
∆
   A C K N O W L E D G M E N T S

     This report was prepared under the direction of Robert A. Vito, Regional Inspector
     General for Evaluation and Inspections in the Philadelphia regional office, and Linda
     M. Ragone, Deputy Regional Inspector General. Other principal Office of Evaluation
     and Inspections staff who contributed include:

     David Tawes, Project Leader
     Tricia Davis, Director, Medicare and Medicaid Branch




 OEI-03-04-00320   ADDITION   OF   ELIGIBLE DRUGS   TO THE   MEDICAID FEDERAL   UPPER   LIMIT LIST   22
